   November 7, 2003




Logistics

Defense Logistics Agency Processing of
Other Nonrecurring Requirements
(D-2004-018)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AIS                   Aviation Investment Strategy
DLA                   Defense Logistics Agency
DSC                   Defense Supply Center
NSO                   Numeric Stockage Objective
ONRR                  Other Nonrecurring Requirements
SPR                   Special Program Requirements
SAMMS                 Standard Automated Materiel Management System
          Office of the Inspector General of the Department of Defense
Report No. D-2004-018                                                  November 7, 2003
   (Project No. D2003LD-0018)

                     Defense Logistics Agency Processing of
                      Other Nonrecurring Requirements

                                Executive Summary

Who Should Read This Report and Why? Logistics personnel with the responsibility
to manage nonrecurring materiel requirements for DoD should read this report. This
report evaluates Defense Logistics Agency (DLA) policies and procedures for processing
other nonrecurring requirements.

Background. Two of the methods that DLA uses to meet nonrecurring requirements for
materiel supply support include special program requirement transactions and other
nonrecurring requirement transactions. Special program requirement transactions are
electronically generated by Military Department customers and relate to DLA supply
support that will be needed at a specific date in the future. Other nonrecurring
requirement transactions are manually input at the DLA supply centers. As of
April 2003, there were 35,405 other nonrecurring requirement transactions, valued at
$263.6 million, which supply center personnel had entered into the DLA supply system.

Results. DLA policies and procedures for processing the 35,405 other nonrecurring
requirement transactions, valued at $263.6 million, were inadequate. Despite the lack of
policies and procedures, DLA use of 34,312 other nonrecurring requirement transactions,
valued at $130.3 million, to enhance supply support for unique programs appeared to be
reasonable. A review of a judgmental sample of 58 (valued at $23.2 million) of the
1,093 remaining transactions, valued at $133.3 million, indicated that 55 (95 percent),
valued at $22.2 million, either did not have sufficient documentation to support the
validity of the other nonrecurring requirement or the requirement should have been
processed as a special program requirement. As a result, DLA could miss opportunities
to minimize investment dollars. DLA canceled six of the other nonrecurring requirement
transactions in the sample, valued at $6 million, because DLA supply center personnel
could not validate the requirements. Revisions to DLA guidance identifying the specific
conditions and requirements for processing other nonrecurring requirement transactions
should correct the material weakness identified by this audit. Funds that could be put to
better use can be calculated after DLA establishes a timeline to validate outstanding other
nonrecurring requirement transactions in the DLA supply system and receives reports on
the results of that validation. (See the Finding section of the report for the detailed
recommendations.)

Management Comments and Audit Response. DLA partially concurred with the
recommendations. DLA stated that existing guidance is being replaced by the Business
Systems Modernization initiative and that DLA will issue policy guidance addressing
other nonrecurring requirements under the new Business Systems Modernization
procedures. The alternative actions proposed by DLA are responsive. DLA also stated
that it would establish a timeline to validate outstanding other nonrecurring requirements
and provide a report of the quantity and dollar value of other nonrecurring requirements
canceled. However, DLA further stated that because of the difficulty in quantifying the
impact of other nonrecurring requirement cancellations on procurement actions in a
dynamic environment, DLA would not report the dollar value of procurement actions
canceled. The DLA comments are partially responsive. We request that DLA reconsider
its position and provide additional comments explaining why the dollar value of
procurement actions canceled will not be reported. Comments should be provided by
January 6, 2004. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                           ii
Table of Contents

Executive Summary                                        i

Background                                              1

Objectives                                              3

Finding
     DLA Other Nonrecurring Requirements Transactions   4

Appendixes
     A. Scope and Methodology                           11
         Management Control Program Review              12
         Prior Coverage                                 12
     B. Report Distribution                             13

Management Comments
     Defense Logistics Agency                           15
Background
    According to the Deputy Under Secretary of Defense (Logistics and Materiel
    Readiness), a major objective of the DoD logistics mission is to provide
    responsive, cost-effective support to ensure readiness and sustainability for the
    total force across the spectrum of military operations. Accomplishing that
    mission depends on the ability of the DoD wholesale inventory management
    organizations to accurately forecast future requirements. The forecasts are based
    on recurring demand data that the inventory management organizations have
    accumulated and advance planning data that the Military Departments have
    submitted concerning future operating plans, including special programs and
    projects. The advance planning data relate to nonrecurring requirements that an
    inventory management organization could not anticipate and provide for if it
    based forecasts for future inventory requirements solely on historical demand
    data. Two of the methods that the Defense Logistics Agency (DLA) uses to meet
    nonrecurring requirements for materiel supply support are special program
    requirement (SPR) transactions and other nonrecurring requirement (ONRR)
    transactions.

    DoD Guidance on Nonrecurring Requirements. DoD Regulation 4140.1-R,
    “DoD Supply Chain Materiel Management Regulation,” May 23, 2003, prescribes
    procedures for the uniform management of DoD materiel. Regarding
    nonrecurring requirements, the Regulation states that the DoD Components may
    submit SPRs to materiel managers to forecast special program or project
    requirements that are non-repetitive in nature and cannot be forecast based on
    historical demand data.

    DoD Manual 4000.25-2-M, “Military Standard Transaction Reporting and
    Accounting Procedures (MILSTRAP),” September 2001, provides procedures for
    submitting requests to the DoD sources of supply for SPRs that are of a
    nonrecurring nature and cannot be forecast based on historical demand data. The
    DoD Manual identifies specific circumstances under which SPR requests can and
    cannot be submitted. For example, SPR requests can be submitted for materiel
    needed for repair or rebuild programs that are either nonrecurring or are seldom
    or irregularly programmed; SPR requests cannot be submitted for requirements
    for which there are recurring demands. The DoD Manual also states that SPR
    requests will be submitted to the supply centers between 90 days and 5 years prior
    to the date that the materiel will be needed (the support date). The procurement
    lead time for most items is greater than 90 days, so delivery for an early support
    date may not be possible.

    DLA Guidance on Nonrecurring Requirements. DLA Manual 4140.2,
    Volume II, “Defense Operations Manual, Defense Supply Center, Supply
    Operating Procedures,” April 2002, provides policy and procedures for DLA
    processing of nonrecurring requirements. The DLA Manual categorizes
    nonrecurring requirements as SPRs and ONRRs. SPR requests are submitted
    by the Military Departments to the Defense supply centers (DSCs) in accordance
    with DoD Manual 4000.25-2-M. SPR transactions constitute the most important
    category of nonrecurring requirements and warrant special management
    emphasis. The DLA Manual states that all nonrecurring requirements that are not


                                        1
SPRs are ONRRs and that supply center personnel should verify forecast
quantities that appear excessive prior to entering the transaction into the DLA
supply system. DLA Manual 4140.2 also categorizes centrally managed assets as
either replenishment demand or numeric stockage objective (NSO) items.

A DLA headquarters memorandum, “Forecasts,” April 17, 1998, establishes a
common basis of understanding for DLA materiel forecasts. The memorandum
states that when Military Department customers have nonrecurring, one-time
requirements, or recurring requirements for which historical demands do not
adequately reflect future requirements, customers should submit SPR requests.
According to the memorandum, the SPR process is the only nondemand-based
forecasting process approved by DoD Regulation 4140.1-R. Regarding ONRR
transactions, the memorandum states that item managers will document the
methodology and rationale for initiating the ONRR transaction in the item file.

DLA Initiatives. DLA provided data showing a significant increase in the
forecast value of nonrecurring requirements over the last 4 years. Historical data
for ONRRs were not available; however, the forecast value of SPRs increased
from $395 million for all of FY 1999 to $872 million open SPRs as of December
2002. In response to the increase, DLA streamlined the process to validate SPR
requirements submitted by the Military Departments in an attempt to improve
controls and avoid over-investment in stock. DLA personnel stated that, as of
December 2002, SPR validation resulted in canceling requirements valued at
about $30 million.

The significant increase in SPRs also raised concerns within DLA about the
accuracy of the Services’ SPR forecasts. In an effort to improve forecasts, DLA
began a program in FY 2000 that tracks the rate at which the Military
Departments requisition items related to the SPR transactions (commonly referred
to as the “buy-back” rate). The purpose of the buy-back program is to minimize
investment dollars by providing feedback on the accuracy of forecasts so that
submitters can improve forecasting methods, if necessary. To limit procurement
quantities, DSC Philadelphia started a pilot program in May 2002 using buy-back
percentages based on the rate that the Military Departments were buying back
SPRs.
ONRR Transactions. As of April 2003, DLA supply center personnel had
entered 35,405 ONRR transactions, valued at $263.6 million, into the DLA
supply system. Table 1 shows ONRR transactions by DSC as of April 2003.




                                     2
                  Table 1. DLA ONRR Transactions as of April 2003

                  Defense              Number of                Value
                Supply Center         Transactions          (in millions)

             DSC Columbus               29,968                 $109.3
             DSC Philadelphia            1,035                   10.0
             DSC Richmond                4,402                  144.3

              Total                     35,405                 $263.6


Objectives
    Our overall objective was to evaluate the process used by DoD Components for
    determining and supporting SPRs. This report evaluates DLA policies and
    procedures for processing ONRR transactions. We also reviewed the
    management control programs as they applied to the audit objective. A
    subsequent report will evaluate the adequacy of the DLA process for validating
    SPR transactions and the use of buy-back rates of SPRs to minimize investment in
    inventory. See Appendix A for a discussion of the scope and methodology, the
    management control program, and prior coverage.




                                       3
                    DLA Other Nonrecurring Requirements
                    Transactions
                    DLA policies and procedures for processing ONRR transactions,
                    valued at $263.6 million, were inadequate. Despite the lack of
                    policies and procedures, DLA use of 34,312 ONRR transactions,
                    valued at $130.3 million, to enhance supply support for unique
                    programs appeared to be reasonable. A review of a judgmental
                    sample of 58 (valued at $23.2 million) of the 1,093 remaining
                    ONRR transactions, valued at $133.3 million, indicated that
                    55 transactions (95 percent1), valued at $22.2 million, either did not
                    have sufficient documentation to support the validity of the ONRRs
                    or the requirement should have been processed as an SPR. Those
                    problems occurred because DLA had not developed detailed
                    procedures that ensured ONRR transactions were properly
                    authorized and processed. Additionally, the DLA DSCs did not
                    comply with DLA policy guidance requiring item managers to
                    document in the item records the rationale for using ONRR
                    transactions. Further, DLA DSCs bypassed controls for SPR
                    transactions by using ONRR transactions to process forecasts from
                    the Military Departments. As a result, DLA could miss
                    opportunities to minimize investment dollars. DLA canceled six of
                    the ONRR transactions in the sample, valued at $6 million, because
                    DLA supply center personnel could not validate the requirements.


DLA Use of ONRR Transactions
           The DSCs manually input all ONRR transactions into the DLA supply system.
           Management at the DSCs approved the use of ONRRs to enhance supply support
           for two unique programs that were not conducive to SPR-defined procedures.
           The programs required DSC managers to increase requirements for supply items
           to meet customer demands, to reduce supply backlogs, and to enhance the
           readiness of weapon systems. The two unique programs were Operation Iraqi
           Freedom and the Aviation Investment Strategy (AIS). DSC supply personnel
           sometimes manually entered ONRR transactions into the DLA automated
           processing system when they received requests from Service organizations by
           telephone or electronic mail. Table 2 shows the purpose and value of ONRR
           transactions in the DLA supply system as of April 2003.




1
    Judgment sampling percentage does not generalize to the universe.



                                                      4
                           Table 2. Purpose and Value of ONRR Transactions
                                                                                         Value
              Purpose                           Number of Transactions               (in millions)

              Enhanced Supply
              Support   for Operation
              Iraqi Freedom                               28,421                        $ 77.3
              Enhanced Supply
              Support for Aviation
              Investment Strategy                           5,891                          53.0
                 Subtotal                                 34,312                         130.3

              Other                                        1,093                         133.3

                   Total                                  35,405                        $263.6



Criteria for ONRR Transactions
           DLA policies and procedures for processing ONRR transactions, valued at
           $263.6 million, were inadequate. Despite the lack of policies and procedures,
           DLA use of 34,312 ONRR transactions, valued at $130.3 million, to enhance
           supply support for unique programs appeared to be reasonable.

           ONRR Transactions to Support Operation Iraqi Freedom. Management at
           DSC Columbus initiated 28,421 ONRR transactions, valued at $77.3 million, to
           enhance supply support to Operation Iraqi Freedom. In April 2003,
           DSC Columbus management processed the 28,421 transactions in response to
           temporary increases in customer demands and resulting backorders to support
           military operations in Iraq. In anticipation of the increased demand, the DSC
           Columbus Corporate Investment Board2 decided to increase requirements by an
           additional 45 days for items with high recurring demand. By using the ONRR
           method to process the requirements through the DLA supply system,
           DSC Columbus supply personnel temporarily increased stock levels without
           adjusting other system-computed requirements factors. Under the circumstances,
           use of the SPR method was not an option because the requirements were not
           generated by Military Department organizations and DSC Columbus did not have
           the capability to input SPR transactions. DSC Columbus personnel stated that the
           ONRR approach had been successfully used in support of Operation Desert
           Storm. Consequently, management at DSC Columbus approved the use of ONRR
           transactions to support Operation Iraqi Freedom.



2
    The Corporate Investment Board is composed of management personnel from DSC Columbus
    directorates chartered to recommend, coordinate, implement, oversee, and evaluate corporate investment
    strategies.



                                                      5
ONRR Transactions to Support the AIS Program. Of the 34,312 ONRR
transactions processed for unique programs, 5,891 transactions, valued at about
$53 million, had been entered into the DLA supply system for selected items in
the AIS program. The requirements for an increase in selected items were
established in response to the FY 1999 Defense Resources Board approval of
$500 million for additional support of DLA-managed aviation investment items
over a 4-year period beginning in FY 2001. According to DLA personnel, the
additional funding was necessary because existing inventory optimization models
did not always assign adequate “safety level quantities” to aviation-related
weapon system items. A safety level quantity is an additional number of items
included in requirements that provides protection against backorders for items not
in stock. The DoD standard is to fill customer requisitions at an aggregate supply
availability rate of 85 percent by weapon system and Military Department.
Although DLA had met the DoD standard in overall terms, requisitions for many
individual and groups of aviation repair parts had historically been filled at a
much lower rate. Consequently, the safety level quantities for targeted groups of
AIS program items needed augmenting to meet the 85 percent supply availability
rate. Because of its focus on aviation weapons support, DSC Richmond was
designated the lead center for implementing the AIS program.

The additional $500 million in funding was designated for aviation replenishment
and NSO items. Item demand forecasts are essential management tools used to
determine levels of stock and safety level quantities for replenishment items.
Accordingly, to determine the safety level quantities for targeted aviation
replenishment items, DSC Richmond used inventory simulation models. In
contrast to replenishment items, NSO items have insufficient demands to establish
stock safety levels based on previous demand history. However, prudent
judgment indicates it is cost-effective to stock a nominal quantity of the item. To
increase quantities stocked for NSO items, management at DSC Richmond
decided to use ONRR transactions.

Policy and Procedures for ONRR Transactions. DLA policies and procedures
for processing the 35,405 ONRR transactions, valued at $263.6 million, were
inadequate. DoD Regulation 4140.1-R and DoD Manual 4000.25-2-M provide
policy and procedures for SPR requests but do not address ONRR transactions.
DLA had detailed procedures on processing and controlling SPR requests, but had
only minimal guidance on ONRR transactions. DLA Manual 4140.2 merely
states that all nonrecurring requirements that are not SPRs are ONRRs. DLA
policies and procedures did not provide sufficient management controls over
ONRR transactions. In its 1998 memorandum on forecasts, DLA actually
emphasized the use of SPR requests and discouraged the use of ONRR
transactions. The 1998 memorandum stated that when Military Department
customers have nonrecurring, one-time requirements, or recurring requirements
that historical demand could not forecast, the customers should submit the
requirements as SPRs. According to the memorandum, the SPR process is the
only nondemand-based forecasting process approved by the DoD Supply Chain
Materiel Management Regulation.

DoD guidance on SPRs identifies specific circumstances under which SPR
requests can and cannot be submitted. The guidance includes criteria for
establishing and accepting SPR requests. For example, SPR requests can be


                                     6
    submitted for repair or rebuild programs that either are nonrecurring or are
    seldom or irregularly programmed. DoD Manual 4000.25-2-M lists 10 specific
    conditions for the use of SPR requests. The DoD Manual further states that SPR
    requests cannot be submitted for requirements for which there are recurring
    demands. The same DoD guidance does not mention ONRR transactions and
    DLA guidance does not include criteria for using ONRR transactions or
    procedures for processing them. Without criteria and specific procedures, DLA
    risks inappropriate processing of unsupported requirements and lost opportunities
    to minimize investment dollars.


ONRR Sample Transactions
    We selected a judgmental sample of ONRR transactions that were initiated at the
    DSCs, but which were not included in Operation Iraqi Freedom or the AIS
    program, to evaluate the validity of the transactions. The judgmental sample
    consisted of 58 (valued at $23.2 million) of the 1,093 ONRR transactions, valued
    at $133.3 million, remaining from the 35,405 ONRR transactions open as of
    April 2003. The evaluation indicated that 55 transactions (95 percent1), valued at
    $22.2 million, either did not have sufficient documentation to support the validity
    of the ONRRs or the requirement should have been processed as an SPR. Table 3
    shows the disposition of the 58 sample ONRR transactions.

                         Table 3. ONRR Sample Transactions

        Audit               Defense                Number of               Value
    Categorization        Supply Center           Transactions         (in millions)

    Reasonable           DSC Richmond                    3                $ 0.99
     Subtotal                                            3                  0.99

    Insufficient         DSC Philadelphia                8                  1.24
     documentation       DSC Richmond                   35                 15.62
      Subtotal                                          43                 16.86

    SPRs                 DSC Philadelphia                1                   0.03
                         DSC Richmond                   11                   5.28
      Subtotal                                          12                   5.31

       Total                                            58                $23.16




                                         7
Reasonable Use. We determined that DSC Richmond processed 3 of the
58 selected ONRR transactions to establish requirements for Halon 1301 fire
suppressant products. Halon 1301 is an ozone-depleting substance that is no
longer manufactured for environmental reasons, per the 1987 Montreal Protocol
international agreement. According to DSC Richmond personnel, the product is
critical to fire safety aboard Navy vessels, which cannot deploy without sufficient
supplies on board. Because Navy demand for the product is erratic,
DSC Richmond personnel used ONRR transactions to stockpile sufficient
on-hand quantities to meet expected demands. In the absence of defined criteria
in DLA policy, we considered the use of ONRR transactions in anticipation of
requirements for fire suppressant products critical for Navy readiness to be a
reasonable application.

Documentation. For 43 (valued at $16.9 million) of the 58 ONRR transactions,
DSC supply personnel at Philadelphia and Richmond did not have sufficient
documentation to determine the validity of or to justify the ONRRs. For
27 ONRR transactions, DSC supply personnel did not sufficiently document the
methodology and rationale for using ONRR transactions. Because insufficient
documentation was created or retained for the 27 transactions, neither the
Philadelphia nor Richmond DSC supply personnel could identify how many of
the transactions were generated in response to customer forecasts. Additionally,
the DLA database does not identify the supply personnel who enter ONRR
requirements into the DLA data system, nor does it retain ONRR records after the
support dates have passed.

Supply personnel used the remaining 16 ONRR transactions to bypass the DLA
controls to prevent over-procurements. DSC Richmond personnel stated that
ONRR transactions had been processed to clear over-procurement notifications
generated by the DLA supply system. Over-procurement notifications are
generated when item on-hand and due-in balances exceed requirements for those
items. To properly clear the notification, supply personnel should perform the
necessary research to confirm whether an over-procurement condition actually
exists and, if so, take necessary corrective action to cancel those over-
procurements within 30 days. DSC Richmond personnel explained that supply
personnel might have processed ONRR transactions to clear current and prevent
future over-procurement notifications with the intent to research the notifications
at a later date. Rather than resolve potential problems, bypassing system controls
introduces risks that potential over-procurement conditions will not be identified
and remedied.

SPRs. Another 12 ONRR transactions, valued at $5.3 million, should have been
processed as SPR requests from the Military Departments. For all
12 transactions, personnel at DSC Philadelphia or Richmond retained
documentation identifying the Military Department organization that generated
the requirement; however, the documentation did not provide adequate
justification as to why ONRR transactions were used, as required by the DLA
1998 memorandum on forecasts. For example, on September 27, 2002, supply
personnel at DSC Richmond received an electronic mail request from the Warner
Robins Air Logistics Center for 306 items with a procurement cost of $678,096.
An ONRR transaction was manually entered into the DLA supply system on
November 16, 2002, indicating a support date of May 1, 2003. That entry


                                     8
    generated a contract for the items that was awarded January 13, 2003. However,
    the ONRR transaction was unnecessary because an SPR request had already been
    submitted on September 23, 2002, potentially resulting in two procurement
    actions for a single requirement.

    The customers with the requirements should have submitted SPR requests for
    those 12 ONRR transactions. Review of supporting documentation and
    discussions with supply personnel at DSC Richmond disclosed that they accepted
    requests by means other than the automated system and processed them as
    ONRRs to expedite the procurement process, generally expecting the Military
    Department organizations to follow through with SPR requests. By bypassing the
    automated system for processing SPRs, the supply center personnel introduce the
    potential for inefficiencies. For example, in an effort to improve forecasts, DLA
    began a program in FY 2000 that tracks the rate at which Military Departments
    requisition or buy back SPRs. The purpose of the program is to minimize
    investment dollars by providing feedback on the accuracy of forecasts to
    submitters, who can then improve forecasting methods, if necessary. When
    nonrecurring requirements forecast by Military Department organizations are not
    processed as SPRs, opportunities to minimize investment dollars through the
    revalidating of forecast requirements and the monitoring of buy-back rates are
    reduced.


Management Action
    During our audit, supply center personnel researched 6 of the 43 ONRR
    transactions with insufficient documentation. All six transactions, valued at
    $6 million, were canceled.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director, Defense Logistics Agency:

          1. Revise Defense Logistics Agency Manual 4140.2, Volume II,
    “Defense Operations Manual, Defense Supply Center, Supply Operating
    Procedures,” April 2002, to specifically:

                 a. Identify the circumstances or conditions under which other
    nonrecurring requirements are authorized for processing.

                  b. Identify the requirements for documenting the methodology
    and rationale for using other nonrecurring requirement transactions.

                  c. Establish requirements for identifying the supply center
    personnel who enter other nonrecurring requirements in the Defense
    Logistics Agency supply system and retaining other nonrecurring
    requirement records after the support dates have passed.


                                         9
       Management Comments. DLA partially concurred, stating that existing
guidance is being replaced by the Business Systems Modernization initiative and
that DLA will issue policy guidance addressing ONRRs under the new Business
Systems Modernization procedures. DLA will issue the new policy guidance
within 120 days, with an expected completion date of February 1, 2004.

       Audit Response. The DLA alternative actions are responsive.

       2. Establish a timeline for the Defense supply centers to validate
outstanding other nonrecurring requirement transactions in the Defense
Logistics Agency supply system. Other nonrecurring requirement
transactions that do not have sufficient supporting documentation or that
cannot be validated should be canceled or reduced and reported to the
Defense Logistics Agency. The report should include the total number of
other nonrecurring requirement transactions that were deleted and the
dollar value of procurement actions that were canceled as a result.

        Management Comments. DLA partially concurred, stating that it will
establish a timeline to validate outstanding ONRR transactions and provide a
report of the quantity and dollar value of canceled ONRR transactions. DLA also
stated that in a dynamic environment it is difficult to quantify the impact of
ONRR cancellations on procurement actions; therefore, the dollar value of
procurement actions canceled would not be a reporting requirement. DLA will
establish a timeline and provide guidance to DSCs within 120 days, with an
expected completion date for the validation of February 1, 2004.

         Audit Response. The DLA comments were partially responsive. DLA
did not provide sufficient details explaining why the dollar value of procurement
actions canceled will not be reported. Reporting the dollar value of procurement
actions canceled would provide DLA managers with a management tool to
monitor the effectiveness of the ONRR process and the investment dollars that
could be put to better use as a result of canceling ONRR transactions. We request
that DLA reconsider its position and provide additional comments explaining why
the dollar value of procurement actions canceled will not be reported in response
to the final report.




                                   10
Appendix A. Scope and Methodology
   We performed the audit at DLA headquarters and the DSCs at Columbus,
   Philadelphia, and Richmond. We reviewed DoD and DLA guidance regarding
   policies, responsibilities, and procedures for managing forecast requirements
   dated from April 1998 through May 2003. We judgmentally selected and
   reviewed ONRR transactions from among the 35,405 transactions, valued at
   $263.6 million, that were open as of April 2003.

   To determine whether ONRR transactions were being adequately controlled and
   managed by the DSCs, we selected a judgmental sample of national stock number
   items for which ONRR transactions were processed. We interviewed item
   managers and customer support personnel and reviewed supply management
   records in order to review DLA processing of the sample items. For the sample
   items, we evaluated the validity of processing the requirements as ONRRs. We
   reviewed actions taken by DLA management pertaining to items in unique
   programs for which ONRR transactions were used. The audit was performed
   from November 2002 through August 2003 in accordance with generally accepted
   government auditing standards.

   We selected a judgmental sample of 80 ONRR transactions involving hardware
   items, valued at $23.9 million, from DSC Philadelphia and DSC Richmond. We
   excluded 21 of the transactions from the sample because we determined they were
   for the AIS program, which we evaluated separately. One other ONRR
   transaction was excluded from the sample because it was identified as a non-
   stocked subsistence item. We then reviewed the remaining 58 sample
   transactions, valued at $23.2 million.

   Use of Computer-Processed Data. We used queries of the Standard Automated
   Materiel Management System (SAMMS) that were developed by DLA to
   determine the number of open ONRR transactions as of April 9, 2003. To
   determine the value of those transactions, we matched the queries against a
   database showing all items and their acquisition costs in SAMMS as of April 16,
   2003. We did not perform a formal reliability assessment of the computer-
   processed data; however, we determined through discussions with item managers
   and review of other data extracted from SAMMS that quantities and acquisition
   costs of ONRRs agreed with the information in the computer-processed data we
   used. Further, although we used SAMMS to determine the number of open
   ONRR transactions, we did not rely on the computer-based data to form our
   conclusions about the use of ONRR transactions.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD Inventory Management high-risk area.




                                      11
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DLA management controls over ONRR transactions. We also
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. As defined by DoD Instruction 5010.40,
    we identified a material management control weakness in the oversight, control,
    and validation of ONRR transactions. Guidance dated from April 1998 through
    May 2003 on the use of ONRR transactions does not address the authority for
    using ONRR transactions nor the documentation and management oversight
    required. Recommendation 1. in this report, if implemented, will correct the
    material weakness. Funds that could be put to better use are undeterminable until
    management takes the actions in Recommendation 2. A copy of the report will be
    provided to the senior official responsible for management controls in DLA.

    Adequacy of Management’s Self-Evaluation. DLA did not identify reviewing
    ONRR transactions as an assessable unit and, therefore, did not identify or report
    the material management control weakness identified by the audit.


Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued one report discussing the AIS program. Unrestricted
    IG DoD reports can be accessed at http://www.dodig.osd.mil/audit/reports.

IG DoD
    IG DoD Report No. D-2002-136, “Defense Logistics Agency Aviation
    Investment Strategy Program,” July 31, 2002




                                        12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Supply Center, Columbus
   Commander, Defense Supply Center, Philadelphia
   Commander, Defense Supply Center, Richmond

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
   on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
   Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
Defense Logistics Agency Comments




                     15
16
17
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Tilghman A. Schraden
Richard Kotecki
Alexander McKay
Robert E. Schonewolf
Eugene V. Barr
Janice Conte
Mandy L. Rush
Elizabeth L.N. Shifflett
